   March 14, 2005




Financial Management
Contracts Classified as
Unreconcilable by the Defense
Finance and Accounting Service
Columbus (Contract No. F30602-81-
C-0153)
(D-2005-040)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACO                   Administrative Contracting Officer
ACRN                  Accounting Classification Reference Number
AFB                   Air Force Base
AFRL                  Air Force Research Laboratory
DCMA                  Defense Contact Management Agency
DFAS                  Defense Finance and Accounting Service
MOCAS                 Mechanization of Contract Administration Services
NULO                  Negative Unliquidated Obligation
PCO                   Procurement Contracting Officer
RAID                  Request and Inspection of Documents
                Department of Defense Office of Inspector General
Report No. D-2005-040                                                       March 14, 2005
   (Project No. D2004FJ-0205)

      Contracts Classified as Unreconcilable by the Defense Finance
                   and Accounting Service Columbus
                   (Contract No. F30602-81-C-0153)

                                 Executive Summary

Who Should Read This Report and Why? Defense personnel in the areas of
acquisition and finance and accounting who are responsible for maintaining and closing
out contracts should read this report. It discusses contracts classified as “out of balance”
and “unreconcilable” because of lost documentation.

Background. On November 14, 2003, the Department of Defense Office of Inspector
General entered into an agreement with the Under Secretary of Defense
(Comptroller)/Chief Financial Officer to review contracts that the Defense Finance and
Accounting Service (DFAS) Columbus considers unreconcilable because of lost
documentation. We agreed to determine whether DFAS Columbus has made adequate
attempts to obtain the documentation needed to reconcile the contracts. If the actions
were adequate, and we agreed that a contract was unreconcilable, DFAS Columbus
would forward a contract closeout summary to the Director of DFAS requesting approval
to close the contract in the Mechanization of Contract Administration Services system.

DFAS Columbus made extensive efforts to locate documents needed to reconcile Air
Force contract number F30602-81-C-0153. A total of 109 documents out of 467 were
located, however, 358 documents were still missing, which prevented a full reconciliation
of the contract. The missing documentation included a complete original contract,
modifications, invoices, and shipping documents.

Results. During the audit, we did not locate any additional documentation that would
allow DFAS Columbus to perform a full reconciliation. Therefore, we concur with the
DFAS Columbus assessment that Air Force contract F30602-81-C-0153 is
unreconcilable. DFAS Columbus needed to perform an obligation review using the
available documentation and determine if the out of balance condition was below
$100,000. If so, DFAS Columbus was permitted by law to forward a request to the
Director of DFAS to prepare internal adjustments to close out the contract. If the
obligation reconciliation showed that the out of balance condition was above
$100,000, DFAS Columbus needed to maintain the contract in Mechanization of Contract
Administration Services pending a change in legislation to increase the threshold. The
Assistant Secretary of the Air Force (Financial Management and Comptroller) needed to
grant permission for the Air Force accounting station to close the Air Force records using
internal adjustments.

Management Comments. The Deputy Assistant Secretary Financial Operations
(Financial Management) for the Air Force and the Deputy Director of Commercial Pay
Services at the Defense Finance and Accounting Service Columbus concurred with the
recommendations; therefore, no further comments are required. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                          ii
Table of Contents
                             Executive Summary

Background                                       1

Objectives                                       2

Finding
     Contract Number F30602-81-C-0153            3

Appendixes
     A. Scope and Methodology                    8
         Management Control Program Review       8
         Prior Coverage                          8
     B. Report Distribution                      9

Management Comments
     Department of the Air Force                 11
     Defense Finance and Accounting Service      12
Background
    Air Force contract F30602-81-C-0153 was awarded to the Harris Corporation on
    April 22, 1981, to design and provide Vinson Autovon Secure Voice Terminals
    (secure communication devices) for use throughout DoD. Rome Air
    Development Center at Griffis Air Force Base, New York, awarded the contract
    and initially obligated $9,675,382. According to records in the Mechanization of
    Contract Administration Services (MOCAS) system, the total contract value and
    the amount obligated over the life of the contract was $40,766,838. The Defense
    Contract Management Agency (DCMA) office in Orlando, Florida, administered
    the contract until October 7, 1985, when the responsibility for contract
    administration was transferred to the DCMA office in Palm Bay, Florida.

    At the time of the audit, the contract had a negative unliquidated obligation
    (NULO) balance of $606,898 in the MOCAS system. Because a NULO existed
    in MOCAS, the contract could not be closed until a full reconciliation was
    performed.

    In an attempt to perform a full reconciliation, the Defense Finance and
    Accounting Service (DFAS) Columbus initiated a “Request and Inspection of
    Documents” (RAID) in July 2003. However, the RAID personnel could not
    locate all the necessary documents required to perform a full reconciliation.

    In accordance with “Unreconcilable Contract Guidance,” DFAS Columbus
    attempted to contact the Administrative Contracting Officer (ACO) and the
    Procurement Contracting Officer (PCO) in July 2003 to request assistance in
    obtaining the missing documentation. DFAS Columbus also initiated efforts to
    contact personnel at the National Air Guard offices at the former Sacramento Air
    Logistics Center in August 2003. DFAS Columbus was able to obtain
    109 documents out of the 467 from the ACO during the RAID process. However,
    the remaining 358 missing documents prevented a full reconciliation of the
    contract.
    On January 30, 2004, DFAS Columbus notified our office that Air Force contract
    number F30602-81-C-0153 was unreconcilable because of the missing
    documentation.

    The Department of Defense Office of Inspector General reached an agreement
    with the Under Secretary of Defense (Comptroller)/Chief Financial Officer on
    November 14, 2003. We agreed that when DFAS Columbus determines that a
    contract is unreconcilable because of missing documentation, our office will
    review the adequacy of actions taken by DFAS Columbus and the DCMA
    activities to obtain the documents needed to fully reconcile the completed
    contract to allow closure in the MOCAS system. If our office agrees with the
    assessment of DFAS Columbus and DCMA that the contract is unreconcilable,
    DFAS Columbus will forward the contract closeout summary to the Director of
    DFAS requesting approval to close the contract in the MOCAS system.




                                        1
Objectives
    Our audit objective was to review the actions DFAS Columbus and DCMA
    activities took in attempting to locate missing documentation and reconcile
    contracts that were considered unreconcilable. See Appendix A for a discussion
    of the audit scope and methodology.




                                       2
           Contract Number F30602-81-C-0153
           On January 30, 2004, DFAS Columbus notified our office that they had
           determined that Air Force contract number F30602-81-C-0153 was
           unreconcilable because of missing documentation and all possible actions
           to locate the missing documents had been taken.

           During the audit, we did not locate any additional documentation that
           could be used to support DFAS Columbus in performing a full
           reconciliation.

           Therefore, we concur with DFAS Columbus that Air Force contract
           F30602-81-C-0153 is unreconcilable. DFAS Columbus should use the
           information it has available to perform a review of obligations to
           determine whether the out of balance condition in the MOCAS system is
           within the provisions of the National Defense Authorization Act for Fiscal
           Year 2004, title VIII, “Acquisition Policy,” section 804. The Act allows
           contracts to be closed if the balance that cannot be reconciled is below
           $100,000.

           If the out of balance condition is below $100,000 after the reconciliation,
           DFAS Columbus needs to forward a request for approval to the Director,
           DFAS to prepare internal adjustments to close out the contract. If the
           obligation reconciliation results fail to meet established provisions of
           current legislation, DFAS Columbus should mark the contract
           “Unreconcilable” and set it aside until new legislation is approved.

           All hard copy documentation related to Air Force contract number
           F30602-81-C-0153 should be retained in a separate file for future
           reference. In addition, the Assistant Secretary of the Air Force (Financial
           Management and Comptroller) needs to grant permission for the Air Force
           accounting station at the Air Force Research Laboratory to close their
           records using internal adjustments.


Documentation Needed for Contract Closure
    Air Force contract F30602-81-C-0153 had been awaiting closure in MOCAS for
    7 years, since April 10, 1996, when DFAS Columbus received a “Request for
    MOCAS Action/Information” (DD Form 1797) from DCMA. The form was used
    by DCMA to request that DFAS Columbus initiate the process of reconciling and
    closing the contract. Although the contractor and the Government reached a final
    settlement on this contract 3 years earlier, on July 8, 1993, no explanation was
    available at DCMA for the delay between the final settlement and the request for
    action.

    The primary reason for the delay in closing the contract in MOCAS was that
    DFAS Columbus did not have the 467 documents it needed to perform a full
    reconciliation. DFAS Columbus gave the contract a low priority for

                                         3
    reconciliation and closure because of the missing documents, and that priority
    remained low for more than 7 years.


Actions Taken on Missing Documents
    DFAS Columbus Search for Missing Documentation. In an effort to close the
    contract in MOCAS, DFAS Columbus personnel began a new search for missing
    documentation in July 2003. They began by contacting the ACO at the DCMA
    office in Palm Bay, Florida, and in August 2003, the DCMA office sent DFAS
    Columbus a box containing source documents for contract modification numbers
    PP0001 through PP 0027, and P00001 through P00059 as well as progress
    payment documents PPRA0001 through PPRA0057. The receipt of those
    documents reduced the number of missing documents from 467 to 358. However,
    DFAS Columbus still did not have the complete original contract and could not
    determine the identity and location of the PCO from the documents it had.

    The DCMA personnel at the Harris Corporation in Palm Bay, Florida, did not
    have any information about the original PCO for the contract, and did not have a
    copy of the original contract awarded by Griffis Air Force Base (AFB). DCMA
    personnel subsequently provided DFAS Columbus a point of contact at Hanscom
    AFB who was the PCO of record for the contract. However, the PCO at Hanscom
    AFB informed DFAS Columbus that the contract was no longer in his database.
    The PCO told DFAS that the contract document may have been classified.

    DFAS Columbus personnel made several other attempts to obtain information
    from other activities identified by the fund codes on the contingent liability record
    in the MOCAS system, however, those inquires did not result in the location of
    any additional documentation.

    DFAS Columbus personnel also searched their own file room for missing
    documentation because seven of the contract folders, that were in the possession
    of DFAS Columbus personnel in November 2001, had been misplaced. However,
    the search failed to produce any additional contract files.

    DoD Inspector General Review and Search. During the audit, we were not able
    to obtain any additional documentation that would allow DFAS Columbus
    personnel to perform a complete reconciliation. We visited the DCMA office at
    the Harris Corporation and did obtain a partial copy of the original contract, but
    numerous essential pages were missing. We also obtained various spreadsheets,
    printouts, pieces of correspondence, a Defense Contract Audit Agency final
    report, and other documents that supported a conclusion that the contract was
    complete and ready for closure.

    At our request, the Air Force Materiel Command Procurement Office at
    Wright-Patterson AFB performed an exhaustive search throughout the contracting
    community and determined that the files from the contract may have ultimately
    been sent to the San Bruno, California, Federal Records Holding Facility from the
    former Sacramento Air Logistics Center. We contacted personnel at San Bruno
    who confirmed that files from the former Sacramento Air Logistics Center had

                                          4
    been transferred to their facility in early 2001 when the Air Logistics Center
    closed. However, San Bruno personnel could not locate the files.


Other Sources of Information and Remedy
    Funding and Accounting Records. DFAS Columbus personnel also attempted
    to contact all of the DoD activities providing funds on the contract (funding
    stations) to determine whether any stations maintained balances in their
    accounting records. DFAS Columbus RAID personnel determined that contract
    F30602-81-C-0153 was assigned to 12 different funding stations. These funding
    stations involved three of the Military Departments and one Defense Agency. A
    breakout of the funding stations is as follows:

           •   Army - six funding stations,

           •   Navy - two funding stations,

           •   Air Force - three funding stations, and

           •   Defense Logistics Agency - one funding station.

    Despite the relatively high number of funding stations, DFAS Columbus
    personnel were successful in obtaining information from only one station in
    March 2004. The other activities had been closed as a result of the base
    realignment and closure process, or DFAS Columbus could not find a good point
    of contact.

    The only funding station that still maintained data on the contract in its
    accounting system was the Air Force Research Laboratory (AFRL) in Rome, New
    York. DFAS Columbus RAID personnel did contact AFRL accounting personnel
    who provided information on two accounting classification reference numbers
    (ACRNs). Those ACRNs contained balances, one of $60,093 and the other a
    negative $18,118. AFRL personnel provided DFAS Columbus with spreadsheets
    to show the ACRN histories and also certified their accounting balances by
    signing the “Document Source Certification” sent to them by DFAS Columbus.
    The existence of an out of balance condition at the official accounting station
    indicates that the contractor may have been overpaid on one ACRN and
    underpaid on the other.

    Legislative Remedy for Air Force Accounting Station Records. Under
    current legislation, the outstanding amounts on ACRNs identified at the AFRL
    can be settled without further research. The National Defense Authorization Act
    for Fiscal Year 2004, title VIII, “Acquisition Policy,” section 804, allows
    contracts to be written off if those contracts contain an unreconciled balance of
    plus or minus $100,000. It states that the Secretary of Defense has the authority
    to settle any financial account for a contract entered into by the Secretary or the
    Secretary of a Military Department before October 1, 1996, that is
    administratively complete, if the financial account has an unreconciled balance,
    either positive or negative, that is less than $100,000.

                                         5
    DFAS Columbus Remedy. The unreconciled balance for contract F30602-81-C-
    0153 is a negative $606,898 in MOCAS. This amount is well over the $100,000
    threshold cited in the legislation for settling the contract. Therefore, DFAS
    Columbus personnel will require alternative procedures to close the contract.
    Specifically, DFAS Columbus personnel proposed conducting a review of
    obligations using the data it has to determine whether the out of balance condition
    can be adjusted within the provisions of current legislation. We agreed with this
    approach as a first step. If the out of balance condition remains above the current
    threshold, DFAS Columbus should take steps to annotate the “Remarks” field in
    the Active MOCAS system identifying this contract as “Unreconcilable” until
    such time that legislation is approved that will allow the contract to be officially
    closed. All hard copy documentation should also be maintained in a separate file
    for future reference as an audit trail for actions taken on the contract.


Actions Needed to Close Contract
    Because documentation could not be obtained that would allow a complete and
    full reconciliation of this contract, DFAS Columbus needs to take steps to close
    this contract in MOCAS using internal adjustments or identify this contract as
    unreconcilable and is awaiting closure pending legislative relief. Annotating the
    contract will notify all activities that the contract is unreconcilable and will be
    closed at a future date.


Recommendations and Management Comments
    1. We recommend that the Director, Defense Finance and Accounting
    Service Columbus:

          a. Perform a review of obligations using all information available to
    determine whether the out of balance condition of Air Force contract
    number F30602-81-C-0153 was beneath the threshold of $100,000 that the
    National Defense Authorization Act for Fiscal Year 2004, title VIII,
    “Acquisition Policy,” section 804 sets as the ceiling allowed for closing a
    contract without a full reconciliation.

    Management Comments. The Deputy Director of Commercial Pay Services
    concurred with the recommendation and stated the obligation review was in
    process and has resulted in positive adjustments to the out of balance condition.

           b. Prepare a contract closeout summary requesting that the Director,
    Defense Finance and Accounting Service grant approval to close Air Force
    contract number F30602-81-C-0153 using only internal adjustments in the
    Mechanization of Contract Administration Services system if the obligation
    reconciliation in Recommendation 1.a. results in meeting provisions of
    current legislation.



                                         6
Management Comments. The Deputy Director of Commercial Pay Services
concurred with the recommendation and stated that if the provisions of the
legislation are met, they will forward the necessary contract closeout package to
the Director, Defense Finance and Accounting Service.

        c. Annotate the “Remarks” field in the Mechanization of Contract
Administration Services system that the contract is unreconcilable and
awaiting closure in the event that legislative relief is approved and if the
steps taken in Recommendations 1.a. and 1.b. do not result in the closure of
contract F30602-81-C-0153.

Management Comments. The Deputy Director of Commercial Pay Services
concurred with the recommendation and stated that if the provisions of the current
legislation are not met, the “Remarks” field in the Mechanization of Contract
Administration Services system will be annotated to identify this contract as
unreconcilable awaiting closure, pending legislative relief.

2. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) request approval from the Office of the
Secretary of Defense to instruct the accounting station at the Air Force
Research Laboratory in Rome, New York, to close its official accounting
records on contract F30602-81-C-0153 in accordance with the provisions of
the National Defense Authorization Act for Fiscal Year 2004, title VIII,
“Acquisition Policy,” section 804.

Management Comments. The Deputy Assistant Secretary Financial Operations
(Financial Management) of the Air Force concurred with the recommendation and
stated that the Air Force will work with the Office of the Secretary of Defense
(Comptroller)/Chief Financial Officer to close out this contract.




                                     7
Appendix A. Scope and Methodology
    We reviewed the steps taken by DFAS Columbus and DCMA in their attempt to
    reconcile contracts considered unreconcilable. The contract was valued at
    $40.8 million according to MOCAS records. We conducted interviews and
    reviewed records maintained by DFAS Columbus, DCMA Harris, and the Air
    Force Research Laboratory. The records obtained included all relevant
    correspondence, emails, and MOCAS system data.

    We performed this audit from February 2004 through September 2004 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the MOCAS system that processes disbursement and
    obligation data, although we used data produced by MOCAS to conduct the audit.
    We did not evaluate the controls because the objective of this audit was to review
    the actions taken to locate missing contract documents. Not evaluating the
    controls did not affect the results of the audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    focuses on the area of Financial Management by providing coverage of DoD
    efforts to confront and transform pervasive, decades-old financial management
    systems.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not review
    the management control program because the audit focused on actions taken to
    obtain missing contract documents.


Prior Coverage
    During the last 5 years, no prior coverage had been conducted on contract number
    F30602-81-C-0153.




                                        8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
    Director, Defense Finance and Accounting Service Columbus
Director, Defense Contract Management Agency
    Director, Defense Contract Management Agency Harris Office




                                          9
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        10
Department of the Air Force Comments




                     11
Defense Finance and Accounting Service
Comments




                      12
13
14
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service, prepared this report. Personnel of
the Department of Defense Office of the Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Clarence E. Knight III
Karen M. Bennett
